Ti

C@OCKLE

. E-Mail Address:
L ega 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923,

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

JACOB JONES AND BRYAN WRIGHT,
Petitioners,
vs.
WAYNE DUKE KALBAUGH,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI and RULE 12.6 LETTER in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 8613 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of July, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Oudeawh. Gh le

Affiant

My Comm. Exp. September 5, 2023

 

Bowmen Kone 0 thew

Notary Public

 
